*•

No.

21-35?

3ftt tl)e Supreme Court of tfje flntteii States
MELVIN KEAKAKU AMINA, DONNA AMINA,
Petitioners,
v.
U.S. BANK NATIONAL ASSOCIATION, AS TRUSTEE FOR
J.P. MORGAN MORTGAGE ACQUISITION TRUST
2006-WMC2, ASSET BACKED PASS-THROUGH
CERTIFICATES, SERIES 2006-WMC2,
Respondents.
Petition for a Writ of Certiorari
to the United States Court ofAppeals
for the Ninth Circuit
APPENDIX
(Certiorari from Ninth Circuit 18-cv-00225)
Melvin Keakaku Amina
Donna Mae Amina
2304 Metcalf Street 2
Honolulu, HI 96822
(808) 949-5215

oupreme Court, U.S '
FILED

JUN 3 0 2021
OFFICE OF THE CLERK

- 1 -

QUESTIONS PRESENTED
1. Does the State of Hawaii lack legal existence
because of illegalities in Hawaii’s statehood process?
(including the removal of Queen Lili‘uokalani by
“superior force,” unratified treaties of annexation,
confusion of “joint resolution” with “enactment,”
Presidential recognition of Hawaiian independence,
an executive agreement to restore the royal
government, “armed invasion,” an Admission Act
passed without a vote of the people, a fraudulent
ballot, and unqualified voters illegally voting)
2. Are inhabitants of the islands consequently not
“citizens of Hawaii” for purposes of Diversity
Jurisdiction?

-1 PETITION FOR A WRIT OF CERTIORARI

Melvin Keakaku Amina and Donna Amina, Pro
Se, respectfully petition for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Ninth Circuit (18-16786) in this case.
OPINION BELOW
The Memorandum of the United States Court of
Appeals for the Ninth Circuit. Unpublished. (App.,
la). Judgment was entered 12/10/2020. (App., la)
The opinion of the district court (App., lb) is
unreported.
JURISDICTION
The judgment of the court of appeals was entered
on 12/10/2020. (App., la). A timely petition for
rehearing was denied on 04/05/2021. (App., lc) The
jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254 (1).
STATUTORY PROVISIONS INVOLVED
The pertinent statutes and constitutional
provisions involved are 28 U.S.C. §§ 1332, 1441(b)(2);
Act of April 30, 1900, C 339, 31 Stat 141 (Territory
Act); Act of March 18, 1959, Pub L 86-3, 73 Stat 4
(Statehood Act); Article IV, Section 3, Clause 1.
STATEMENT

-2This case presents questions of broad practical
importance to everyone in Hawaii: (l) Does the State
of Hawaii lack legal existence (and Union
membership) because the removal of Queen
Lili‘uokalani by “superior force” was not a lawful act,
and because a correct count of the lawful votes would
show that Hawaiian statehood was not approved,
and for the other reasons set forth here? (2) Are the
Aminas, and others similarly situated, “citizens of
Hawaii” for purposes of Diversity Jurisdiction? And
possibly- (3) Does the Federal court in Hawaii lack
legal existence?
1.

Legal Background

i. Both treaties of annexation were never
consented to by two-thirds (2/3rds) of those present
in the United States Senate.
ii. The Organic Act of 1900 presumptively
extending U.S. citizenship (sec. 4) to Hawaiian
citizens and descendants of them as well as asserting
jurisdiction over the territory (sec.2) and citizens of
Hawaii was not properly grounded in that it was
based upon the previous resolution on 1898 of
annexation of Hawaii (The Newlands Resolution). A
joint resolution is not an enactment and is restricted
to the boundaries of the United States. The key to
Hawaii’s legal status remains with the 1893
executive agreement between two heads of statePresident Grover Cleveland and Queen Lili‘uokalani.
iii. US President John Tyler recognized Hawaiian
independence on December 19, 1842. In November of
1893, President Cleveland negotiated an agreement
to fully restore the government of Queen

-3Lili‘uokalani under the condition she grant amnesty
to all involved in her overthrow. A formal declaration
accepting Cleveland’s terms of restoration came from
the queen in December 1893. This executive
agreement between President Grover Cleveland and
Queen Lili‘uokalani is binding under both
international and US federal law.
iv. United States President Cleveland in
addressing the joint houses of Congress on December
18, 1893, stated it accurately when he said, “candid
and thorough examination of the facts will force the
conviction that the Provisional Government owes its
existence to an armed invasion by the United
States.”
See also Public Law 103*150, which is
incorporated by reference as if fully set forth. The
United States had formally recognized Hawaii as an
international personality, recognizing the Nation of
Hawaii as a sovereign, independent nation state.
Queen Lili‘uokalani famously stated “that I yield to
the superior force of the United States of America,”
She made it very clear that this statement and her
later abdication were procured under duress and
force.
v. On March 12, 1959, the U.S. Congress passed
the Hawaii Statehood Admission Act (PL.86'3),
before a vote on the issue by the colonized Kanaka
Maoli people, in violation of the Kanaka Maoli right
to self-determination.
vi. On June 27, 1959, a Statehood Plebiscite in
Hawaii posed only one option on the ballotimmediate statehood. The only other (unstated)
option was for Hawaii to remain as a territory. No
reference was made to two other options—
independence or free association—as provided by

-4UNGAR 742 of 1953.
vii. All U.S. citizens in Hawaii, including U.S.
military personnel, were permitted to vote, instead of
only the colonized Kanaka Maoli people who were
the only island residents eligible for the exercise of
self-determination and who comprised only 16
percent of the resident population.
Because the State of Hawaii lacks legal existence,
the Aminas are either citizens of the Kingdom of
Hawaii, or citizens of the Territory which pre-existed
the purported State of Hawaii.
2.

Factual Background

There was no trial or summary judgment, so the
facts are still disputed. According to [12] Findings
and Recommendations on Motion to Dismiss- “To the
extent the Aminas removed on the basis of diversity
jurisdiction, removal is improper because it violates
the forum defendant rule and because the Aminas
failed to establish diversity jurisdiction.” The
relevant facts are therefore the domiciles of the
parties.
Public records show that Plaintiffs headquarters
are in Minnesota and that Plaintiffs corporate
headquarters (main office) is in Cincinnati, Ohio.
The [l] Notice of Removal states: “Defendants are
not citizens of Hawaii.” The [12] Findings and
Recommendations states- “Notwithstanding the
Aminas’
nonsensical
and
contradictory
representation that they are not citizens of Hawaii
given Hawaii’s illegal statehood, multiple records
within this district [sic] establish that they are in
fact citizens of Hawaii.” The District Court never

-5asserted that any record within the case file
supported this conclusion.
3. Proceedings Below
The Plaintiff, U.S. Bank, asked the state court for
declaratory relief and to foreclose a mortgage. The
Plaintiff also asked the Defendants, the Aminas, to
pay some of the Plaintiffs attorney fees.
The Aminas removed the case to Federal District
Court, claiming diversity jurisdiction, since the
Aminas cannot be citizens of Hawaii (but instead
must be citizens either of the Hawaii Territory or of
the Kingdom of Hawaii, whereas Plaintiff is a citizen
of Ohio).
The Plaintiff moved to have the case sent back to
the (legally nonexistent) state court. This motion was
granted and the Aminas appealed.
The Ninth Circuit affirmed and the Aminas, after
their [37] petition for panel rehearing was [38]
denied, gave [41] notice of intent to file for certiorari.
REASONS FOR GRANTING PETITION
The question of the status of Hawaii is clearly of
importance to the entire population of the islands.
The question of whether United States courts will
hear cases about unlawful establishment of
governments is clearly of importance to the
population of the United States and beyond. Was the
poet and diplomat James Jeffrey Roche [1847-1908]
correct to write the following?
“0 wondrous web of mystery!
Big fish alone escape from thee!”

-6-

I.
THE
AMINAS
CLAIMED
DIVERSITY
JURISDICTION AND U.S. BANK ACQUIESCED
The Aminas, in their [l] Notice of Removal,
claimed diversity jurisdiction because “Defendants
are not citizens of Hawaii” because “The processes of
Hawaii’s statehood and membership in the Union
were legally defective.”
Plaintiff U.S. Bank, in its [8-1] Memorandum in
support of remand, did not address the question of
diversity jurisdiction.
II. THE ILLEGAL ANNEXATION OF HAWAII HAS
MULTIPLE LEGAL CONSEQUENCES
Pursuant to (IV-3) of the Constitution, new states
may join the Union, but Congress cannot admit any
political entity less than a State. Therefore there are
two steps- statehood and admission. Statehood
means the establishment of the State Constitution,
which authorizes the legislative, executive and
judicial branches of the state. Admission means
membership in the Union.
Hawaii’s purported statehood was done illegally,
as discussed above, and therefore Hawaii’s
legislature, which purportedly passed all the
relevant state statutes, does not legally exist; neither
does Hawaii’s executive branch, which purportedly
authorized Plaintiff to do business on the islands,
including making the disputed mortgage loan;
neither does Hawaii’s state courts, in which Plaintiff
filed its action.
Hawaii’s purported admission was done illegally,

-7-

as discussed above, and therefore the United States
District Court for the District of Hawai‘i possibly
does not legally exist, leading to an anomalous
procedure posture for this lawsuit.
We leave it to this honorable Court to untangle
the consequences.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.

Executed- 6/29/2021. /s/Melvin Keakaku Amina
Melvin Keakaku Amina
2304 Metcalf Street
Honolulu, HI 96822
(808) 949-5215

Executed: 6/29/2021. /s/ Donna Mae Amina
Donna Mae Amina
2304 Metcalf Street
Honolulu, HI 96822
(808) 949-5215

